U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Mnuchin v. Confederated Tribes of the Chehalis Reservation, No. 20-543

Dear Mr. Harris:
The government filed a petition for a writ of certiorari in the above-captioned case on
October 23, 2020. The respondents’ briefs in opposition were filed on December 16, 2020.
Pursuant to Rule 15.5 of the Rules of this Court, the government expressly waives the 14-day
waiting period for distribution of the petition. We respectfully request that the Court distribute the
petition on the next distribution date for paid cases (December 23, 2020), so that the petition may
be considered at the conference of January 8, 2021.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0543
MNUCHIN, STEVEN T., SECRETARY OF THE
TREASURY
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.

BRADLEY G. BLEDSOE DOWNES
2332 HOWLAND HILL ROAD
CRESCENT CITY, CA 95531
949-500-4092
BDOWNES@ELK-VALLEY.COM
LORI BRUNNER
QUINAULT OFFICE OF THE ATTORNEY
GENERAL
136 CUITAN STREET
TAHOLAH, WA 98587
360-276-8215
LBRUNER@QUINAULT.ORG
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
ERIC DAHLSTROM
ROTHSTEIN DONATELLI LLP
1501 W. FOUNTAINHEAD PARKWAY
SUITE 360
TEMPE,, AZ 85282
EDAHLSTROM@ROTHSTEINLAW.COM

NICOLE E. DUCHENEAUX
1404 FORT CROOK ROAD SOUTH
BELLEVUE, NE 68005
531-466-8792
NDUCHENEAUX@BIGFIRELAW.COM
JENNIFER BEAR EAGLE
PO BOX 1204
PINE RIDGE, SD 57770
605-867-2140
JENNIFERBE@OSTLEGAL.ORG
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN
JONATHAN W. KATCHEN
HOLLAND & HART LLP
1029 W. THIRD AVENUE
SUITE 550
ANCHORAGE, AK 99501
JWKATCHEN@HOLLANDHART.COM
NATALIE A. LANDRETH
NATIVE AMERICAN RIGHTS FUND
745 WEST 4TH AVENUE
SUITE 502
ANCHORAGE , AK 99501
907-276-0680
LANDRETH@NARF.ORG
907-276-2466(Fax)

JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM
JEFFREY S RASMUSSEN
PATTERSON EARNHART REAL BIRD &
WILSON LLP
357 S. MCCASLIN BOULEVARD
SUITE 200
LOUISVILLE, CO 80027
303-926-5292
JRASMUSSEN@NATIVELAWGROUP.COM
303-926-5293(Fax)
ALEXANDER B. RITCHIE
16 SAN CARLOS AVENUE
PO BOX 40
SAN CARLOS, AZ 85550
928-475-3348
ALEX.RITCHIE@SCAT-NSN.GOV
LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

